         AUDIT REPORT 

    INFORMATION SYSTEM CONTROLS 

AT THE NATIONAL AIR AND SPACE MUSEUM 


             Number A-03-08 


            September 3,2003 

                                        SUMMARY 


The Office of the Inspector General audited information system controls at the National
Air and Space bluseum (NASM). The purpose of the audit was to establish a system
security baseline by evaluating information system controls regarding systenl access, server
and network security, and p l~ysicalconditions.

The following points were collsidered throughout our audit. Adequate security of
information resource systelns is a fundamental management responsibility. Of necessity,
management must make a reasonable balance between information technology security
and operational capability.

Overall, some controls adequate to provide reasonable security of information resources
were in place regarding system backup. The servers that the Information Technology
Department administered were up-to-date with critical security patches and hot futes.
However, system security could be strengthened for some computers not completely
administered by the Information Technology Department. It is Smithsonian policy, as
well as good business practice, that controls be established to maintain accountability for
the custody and use of resources and to provide reasonable assurance that assets are
safeguarded against loss or unauthorized use. Therefore, we made the following
recommendations to the Director, NASM that include improving systems security and
general system controls:

    1.	 Establish a process to perform periodic reviews of server configurations to ensure
         necessary patches and hot fixes are up-to-date.
    2. 	 Evaluate system resources and remove unnecessary accounts.
    3. 	 Perform system port scans and determine if open ports on servers and.work
         stations are necessary. If not, close all unnecessary ports.
    4. 	 Relocate the NASM Internet website to the Institution's secured web hosting
         location.
    5. 	 Delineate clear information system administration responsibility across NASM to
         the NASM Information Technology Department.
    6. 	 Assess NASM computers and remove all unnecessary computers attached to the
         Smithsonian Institution networ-k.
    7. 	 Review the use of non-Smithsonian standard supported e-mail applications.
    8. 	 Consider reallocating computer resources from the Information Technology
         Department computer room to the more operationally equipped computer facility
         within Center for Earth and Planetary Studies.

The Director, NASM concurred with most of the audit recommendations. Overall, we
believe that the corrective action taken and planned is responsive to the
recommendations. We ask the Director to reevaluate the necessity of the over-capacity
computers within the Center for Earth and Planetary Studies unit and address who is
responsible for their administration.



                                                        I Y ~ f f i #of the lnsp&tor General
                                                TABLE OF CONTENTS



1. Introduction .....................................................................................................................................
                                                                                                                                                  1


       A. Purpose ...................................................................................................................................
                                                                                                                                                   1


       B. Scope and Methodology ......................................................................................................... 
 1

       C. Background .............................................................................................................................
                                                                                                                                                1


2. Results of Audit ................................................................................................................................
                                                                                                                                                 2


       NASM Information System Security ..........................................................................................
                                                                                                                                2


Table.     ...................................................................................................................................................

                                                                                                                                                    3

Appendix A. Policies and Industry Standards ....................................................................................
                                                                                                                              7


Appendix B. Management Comments                            ...........................................................................................9 

                                          ABBREVIATIONS AND ACRONYMS

                   CEPS              Center for Earth and Planetary Studies 

                   CIS               Center for Internet Security 

                   IT                Information Technology 

                   NIST              National Institute of Standards and Technology 

                   OCIO              Office of the Chief Information Officer 

                   NASM              National Air and Space Museum 

                   SD                Smithsonian Directive 

                   SI                Smithsonian Institution 

                                   INTRODUCTION

A. Purpose

The purpose of the audit was to establish a system security baseline by evaluating NASM
information system controls for systems access, server and network security, and physical
security.

B. Scope and Methodolog

The audit was conducted from April 8,2003, to August 7,2003, in accordance with
generally accepted government auditing standards. The audit methodology consisted of
the following:

       Identifying and reviewing applicable Institution policies and procedures related to
       system general controls, computer system security and the integrity of computer
       resources.
       Comparing NASM's system security setting with industry and Institution
       standards.
       Evaluating controls to safeguard and protect networks.
       Assessing the adequacy of controls to prevent and detect unauthorized activities
       including external intrusions, theft, or misuse of computers and networks.
       Utilizing guidance issued by the National institute of Standards and Technology,
       National Security Agency, and Microsoft Corporation relating to system security
       configuration.

We reviewed the following:

       Policies, procedures, and controls relating to system security and data integrity.
       Controls over server and network configurations.
       Controls to prevent and detect unauthorized activities.

As part of our review, we conducted interviews with NASM technology and
administrative staff. We spoke with staff from the NASM Information Technology
Department and NASM facilities staff. Through interviews, we gained an understanding
of the practices employed concerning system configuration, network security, and system
access.

C. Background

The Smithsonian National Air and Space Museum was established to memorialize the
development of aviation; collect, preserve, and display aeronautical equipment; provide
educational material for the study of aviation; and to commemorate the development of
air and space flight.
Review of NASM Information Systems

Information system security controls can be strengthened within NASM. Specifically,

        Some Microsoft Windows server configurations were not up-to-date and did not
        meet industry standards.
        Computer access controls were weak.
        Unnecessary computers with vulnerable open ports were kept on the SI network.
        A publicly accessible website was not located within the secured SI Web hosting
        location.
        ~ 0 ~non-Smithsonian
                  3 '            supported e-mail systems are being used.
        Underutilized computer facilities are attached to the SI network.

These weaknesses exist because there is no clear delineation and understanding of system
administration responsibilities among the different NASM functional units. In addition,
there has not been a process put in place for evaluating and removing unnecessary access
accounts on servers or staff computers. The lack of clear system administrative
responsibilities puts NASM system resources at risk to unauthorized, undetected access,
and alteration. In addition, clear responsibilities for system administration and
optimizing computer facilities will strengthen NASM information technology (IT)
security, improve efficiencies, and possibly save funds when future expansions are needed.

Details of Review

We evaluated NASM system configurations that included server and sub-network
security. NASM operates in a mixed server operating system environment that includes
Novell, IBM Domino, and Microsoft Windows. Under the system configuration that
existed at the time of our audit, we determined that some NASM servers and client
systems were vulnerable and should be strengthened to meet industry standard security
 recommendation^.^^ Specifically,NASM Information Technology Department
performed system administration for the Novell and IBM Domino servers. We
determined that these machines were up-to-date with the respective service packs and hot
fixes.4 For three Windows servers, we determined that the system administration
functions for these machines were not clearly defined between the application users and
the Information Technology Department. As a result, these computers' security
configurations were not fully up-to-date.




 POP3 is an acronym for Post Ofice Protocol 3, a protocol used to retrieve e-mail from a mail server.
 We used the Center for Internet Security (CIS) scoring tool as a basis to evaluate each Microsoft Windows
NT and Windows 2000 server. The tool produces a score by applying the "Windows Security Scoring Tool"
which is a number between one and ten, with ten being the most secure.' For non-Windows operating
systems we obtained from the respective company websites the latest operating system levels and associated
hot fixes and service packs.
 The scoring tool criteria are divided into for categories: (1) service packs and hot fixes, (2) policies, (3)
security settings, and (4) available services and other system requirements.
 For non-Windows operating systems we obtained from the respective company websites the latest
operating system levels and associated hot fixes and service packs.
The following table reflects the status of the three Microsoft Windows operating system
servers and their respective up-to-date patches and hot fures.


Number of Missing Hot
Fixes and Patches                   18             0             23
Missing Service Packs               0              0              0
CIS Score                          3.8            7.5            3.8             4.7

The failure to keep servers up-to-date is easily mitigated by maintaining and updating
applications with the latest hot fixes, patches, and service packs. According to the NIST,
keeping applications up-to-date is critical to maintaining the operational availability,
confidentiality, and integrity of system resources.

NASM network analyses determined that many NASM server and client workstations
could be subject to unauthorized access due to weak access controls. We were able to
identify NASM computers that contained several vulnerable administrative accounts
which could give full access to the computers. During the audit we brought this to the
attention of the Information Technology Department staff. The Information Technology
Department staff immediately developed a plan to address the weaknesses and correct this
vulnerability. Also, we determined that a NASM unit was using POP3 e-mail applications
and not the Institution standard e-mail application. POP3 e-mail systems can add
additional administrative overhead and often are difficult to configure to communicate
effectively with the standard NASM or SI e-mail system.

In addition, our network scans identified numerous servers including the NASM external
web server with ports that are vulnerable to denial of service attacks. Also, the NASM
external web server was located within the SI intranet and not within the special network
protected zone identified for Institution website hosting. We also identified numerous
UNIX computers that were connected to the SI network that had no apparent use. These
machines were being used by the NASM Center for Earth and Planetary Studies for
electronic file storage. However, our evaluation determined the computers memory was
at capacity and there were many vulnerable open ports without clear IT administrative
oversight.

We determined through physical evaluations of NASM IT facilities that the Information
Technology Department's computer room was not designed as a computer room. The
computer room consisted of a room and closet that were converted to make a computer
room facility. There was no raised floor, it was cramped, and it was difficult for more
than two administrators to work effectively within the room. However, NASM does have
a room that was designed to be a computer room facility that is not being fully utilized.
This computer room is located within the Center for Earth and Planetary Studies. A
review of the room during the audit determined that there was an apparent lack of
housecleaning within the room. The underutilization is because the computer room is
located within another NASM unit's area and not where NASM IT administrators reside.
Optimizing the computer room for dedicated NASM IT administration will improve
efficiency and operations for IT administration and prevent unnecessary resource
expenditures for building or room modifications.
Based upon our reviews, these weaknesses exist because there is no clear delineation and
understanding of system administration responsibilities among the different NASM
functional units. In addition, there has not been a process put in place for evaluating and
removing unnecessary access accounts on servers or staff computers. As a result, system
resources are vulnerable to unauthorized and undetected access. Implementing the
recommendations can improve NASM system weaknesses and improve its current state.

Recommendations

I. We recommend that the Director, National Air and Space Museum ensure that his
staff establish a periodic process to perform periodic reviews of server configurations to
ensure patches and hot fures are up to date and necessary.

Management Comments

Concur. For all network-dependent systems, every three months NASM will review and
update server configuration. For services that do not reside on the NASM network,
including those that support CEPS operations, we will upgrade as necessary. Many non-
resident research systems will be phased out when the software is retired.

Office of the Inspector General Response

The Director's actions are responsive to the recommendation. The recommendation is
closed.

2. We recommend that the Director, National Air and Space Museum, ensure that his
staff evaluate system resources and remove unnecessary accounts.

Management Comments

Concur. Unnecessary accounts have already been removed and system resources will be
reevaluated on a three month schedule.

Ofice of the Inspector General Response

The Director's actions are responsive to the recommendation. The recommendation is
closed.
3. We recommend that the Director, National Air and Space Museum, ensure that his
staff performs system port scans and determine if open ports on servers and work stations
are necessary and close all unnecessary ports.

Management Comments

Concur. NASM will on a quarterly basis scan all ports and close all unnecessary ports on
its workstations and servers.

Office of the Inspector General Response

The Director's actions are responsive to the recommendation. The recommendation is
closed.

4. We recommend that the Director, National Air and Space Museum, ensure that his
staff relocate the NASM Internet website to the SI secured web hosting location.

Management Comments

Partially Concur. NASM is reexamining the alternatives of maintaining the current
arrangement with movement into OCIO's DMZ (secured web hosting location).

Office of the Inspector General Response

The Director's actions are responsive to the recommendation. The recommendation will
remain open until NASM's examination is complete or the NASM's Internet web site is
relocated to the secured web hosting location referred to as the DMZ.

5. We recommend that the Director, National Air and Space Museum, ensure that his
staff delineate clear information system administration responsibility across NASM to the
NASM Information Technology Division.

Management
    -      Comments

Concur. NASM will issue a policy describing the responsibilities of the information
technology department and its relationship to organizations that have specific
information technology requirements.

Office of the Inspector General Response

The Director's actions are responsive to the recommendation. The recommendation is
open until the policy is formalized and distributed within NASM.

6. We recommend that the Director, National Air and Space Museum, ensure that his
staff assess NASM computers and remove all unnecessary computers attached to the SI
network.
Management Comments

Non-Concur. All NASM computers are used by staff, researchers or volunteers, and are
considered necessary. There are some systems that are designed for single, scientific
purposes only, and may not be used on a consistent basis. However, they are core
element of our scientific mission and should remain part of NASM's computer
complement.

Office of the Inspector General Response

The Director's actions are not responsive to that recommendation. We identified during
the audit computers where staff clearly stated there was no apparent use and could be
removed from the NASM network. Some computers were removed and others, we were
told, would be removed. These computers also had numerous open vulnerable ports, and
memory was at capacity thereby making the systems unstable. If these machines are
critical to NASM researchers then some level of system administration was lacking and is
needed. The recommendation will remain open and we ask the Director to reevaluate the
recommendation and evaluate the computers within the Center for Earth and Planetary
Studies (CEPS) computer room to determine if their function is clearly needed under
their current configuration. In addition, a clear understanding of who is responsible for
administration of CEPS computers is required.

7. We recommend that the Director, National Air and Space Museum, ensure that his
staff review the use of non-Smithsonian standard supported e-mail applications.

Management Comments

The POP3 e-mail system provides NASM's scientists flexibility that is not found in other
systems. Information Technology approved its use in 1999.

Office of the Inspector General Response

The Director's actions are responsive to the recommendation. Since Information
Technology has approved the use and therefore accepted the nonconformity and
additional administration the recommendation is closed.

8. We recommend that the Director, National Air and Space Museum, ensure that his
staff consider reallocating computer resources from the Information Technology
Department computer room to the more operationally equipped computer facility within
Center Earth Planetary Studies.

Management Comments

Partially-Concur. NASM is currently reconfiguring its existing computer facility to meet
expanded requirements. In addition, the Center for Earth and Planetary Studies room
would need an equivalent level of outfitting to meet system requirements already in place
in the current computer facility. If the computer facility is to be moved, we would prefer
to configure the new space that will open when the cooling tower is removed from
NASM's third floor.
Office of the Inspector General Response

The Director's actions are responsive to the recommendations. The recommendations
will remain open until a more detailed cost-benefit analysis is performed which supports
relocation or a facility modification.
Appendix A. Policies and Industry Standards

We evaluated NASM system security during April 8,2003, through August 7,2003. We
used Smithsonian Directives as well as industry guidance and standards from the National
Institute of Standards and Technology, General Accounting Office, National Security
Agency, Microsoft Corporation, Novel1 Corporation and the IBM Corporation. The
evaluation included a review of operating system configurations, server configurations,
user accounts, network ports, and vulnerable services.

Smithsonian Directive 115, Management Controls, revised July 23, 1996, lists standards
that shall apply to all Institution units. The directive requires managers to take systematic
and proactive steps to develop and implement appropriate, cost-effective management
controls. These controls should provide reasonable assurance that assets are safeguarded
against waste, loss, unauthorized use, and misappropriation.

Smithsonian Institution, Technical Reference Model, Version 1.0, December 2001, IT-920-
01, applies to program area and technical managers, and others responsible for
information technology systems and services. Compliance is required unless explicitly
waived by the Chief Information Officer. The Technical Reference Model recognizes that
the institution is composed of varied hardware and software products that in many cases
are incompatible. The heterogeneous nature of the institution's technology infrastructure
has constrained its ability to introduce new technology. The Technical Reference Model
attempts to address this problem through establishing a consistent information and
communication services throughout the Institution. A standards approach will provide
the ability to update and replace technology in a more cost-effective manner. The
Technical Reference Model identifies Groupwise or Lotus Notes as the preferred e-mail
communication standard.

GAO, Financial Information Systems Control Audit Manual, January 1999, provides
guidance in evaluating computer related controls. The guidance describes access controls
to provide reasonable assurance that computer resources are protected against
unauthorized modifications, disclosure, loss, or impairment. Such controls include
physical controls such as locking computer rooms to limit access. Inadequate access
controls diminish the reliability of computerized data and increase the risk of destruction
or inappropriate disclosure of data.
National Security Agency (NSA) Research Study by Trusted Systems Services, Windows NT
Security Guidelines Considerations & Guidelines for Securely Configuring Windows NT
in Multiple Environments, 1999, provides guidelines for countering known attacks on
Windows NT installations that expose or modify user data maliciously. The goal is to
make Windows NT as secure as reasonably and practically possible. Implicit in the
guidelines is the understanding that recommendations must be both effective against
certain threats and also practical. A balance is necessary between security and operations
because some controls impede operational capability.

NSA, Guide to Securing Microsoft Windows NT Networks, 2001, identifies a variety of
available Windows NT 4.0 security mechanisms and provides steps or measures for their
implementation. The guide provides a solid security foundation for any Windows NT 4.0
network by offering step-by-step instructions on how to utilize the operating system's
built-in security features, additional add-on service packs, and hot fixes.
Microsoft White Paper, Securing Windows NT Installation, 1997, states the default, out-of-
the-box NT configuration is unsecured. This white paper discusses various security issues
with respect to configuring all Windows NT operating system products for a highly secure
computing environment.

National Institute of Standards and Technology (NIST) Special Publication 800-18, Guide
for Developing Security Plansfor Information Technology Systems, December 1998, states
that the objective of system security planning is to improve the protection of information
technology resources. All federal systems have some level of sensitivity and require
protection as part of good management practice. According to NIST, system security
plans should document the protection of the system. Additionally, the completion of
 system security plans is a requirement of the Office of Management and Budget Circular
A-130, Management of Federal Information Resources, Appendix 111, Security of Federal
Automated Information Resources, and Public Law 100-235, Computer Security Act of 1987.
 The purpose of the security plan is to provide an overview of the security requirements of
 the system and describe the controls in place for meeting those requirements. The system
 security plan also delineates responsibilities and expected behavior of all individuals who
 access the system.

The NIST special publication, Generally Accepted Principles and Practices for Securing
Information Technology Systems, September 1996, provides instructions,
recommendations, and considerations for government computer security. According to
NIST guidance, security policies and procedures should be in place to protect valuable
resources, such as information, hardware, and software. The security program should
allow for periodic assessments and should ensure that personnel understand their
respective responsibilities.
Appendix B. Management Comments




  O                Smithsonian
                   National Air-and Space Museum
                   Office of the Director 	                                                          MEMO

      l>atc     August 29,2003
        TO 	Tholnas        Blair 

                   Inspector General 

        CC. 	   Dennis Shaw 

                Chief Information Ofticer 

     F ~ ~ I I I.I.R. Dailey 

                   Director 
        $69-;J
   Subject 	       Draft Report on Audit of Information Systems Security Controls at the National Air and
                   Space Museum

                         Thank you for the opportunity to review your evaluation of thc National Air and
                   Space Museuln's infonnation systems security. We concur with Inany of your
                   rccomrnendations; however there are sonic areas that should bear further examination.
                           Recolntnendation # I : Establisli a periodic process to pertbmi periodic reviews of
                   server contiguration to ensure patches and hot tixes are up to date and necessary.
                            Response #I : For all network-dependent systems, every three months NASM will
                   review and update server configurations. For servcrs that do not reside on the NASM
                   network, including tliose that suppol* CEI'S operations, wc will upgrade as necessary.
                   Many of the non-resident research systems will be phased out when the software is
                   retired.
                         Recommendation #2: Evaluate systems resources and ranove unnecessary
                   accounts.
                         Response #2: This has already been done and will he reevaluated on a three-
                   month schedule.
                           Recoln~nendation#3: Perform system port scans and detennine if open ports on
                   servers and workstations are ncccssaly. If riot. close unnecessary ports.
                           Response #3: Quarterly NASM will scan all ports and close all unnecessaly ports
                   on its workstations and servers.
                          Recommendation #4: Relocate the NASM Internet website to the SI secured weh
                   hosting location.
                          Response #4: We are examining the alternatives of maintaining the current
                   arrangement with movement into OClO's DMZ.

                   SMITHSONIAN INSTITUTION
                   Nat~onalAir and Space Museum 

                   Independence Avenue at Sixth Street SW 

                   P.O.Box 37012
                   Washington DC 20013-7012
                   202.633.2350 Telephone 

                   202.357.2426 Fax 

       Recommendation #5: Delineate clear infonnation systems administrator
responsibilities across NASM to the NASM lnfonnation Technology Division.
        Response #5: NASM will issue a policy describing the responsibilities of the
Information Technology Department and its relationship to organizations that have
specific infonnation technology requirements.
      Recomnlendation #6: Assess NASM computers and remove all unnecessary
computers attached to the SI network.
        Response #6: All NASM computers are used by staff, researchers or volunteers.
and are considered necessary. There are some systems that are designed for single,
scientific purposes only, and may not be used on a consistent basis. However, they are a
core element of our scientific mission and should remain part of NASM's computer
complement.
       Recommendation #7: Review the use of non-Smithsonian standard supported e-
mail applications.
         Response #7: The POP-3 e-mail system provides NASM's scientists flexibility
that is not found in other systems. lnfonnation Technology approved its use in 1999.
         Recommendation #8: Consider reallocating computer resources tivm Information
Technology Department computer room to the more operationally equipped computer
facility within the Center for Earth and Planetary Studies.
        Response #8: NASM is currently reconfiguring its existing computer facility to
meet expanded requirements. In addition, the Center for Earth and Planetary Studies
room would need an equivalent level of outfitting to meet system requirements already in
place in the current computer facility. If the computer facility is to be moved, we would
prefer to configure the new space that will open when the cooling tower is removed from
NASM's third floor.
